No. 20-5578
IN THE SUPREME COURT OF THE UNITED STATES
_________________
STEVEN GERARD WALKER, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies
of the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 28th day of October, 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
October 28, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 5148844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-5578
WALKER, STEVEN GERARD
USA
PEGGY SASSO
OFFICE OF THE FEDERAL DEFENDER
2300 TULARE STREET
STE. 330
FRESNO, CA 93721
559-487-5561
PEGGY_SASSO@FD.ORG

